JOHN CREUZOT
CRIMINAL DISTRICT ATTORNEY
DALLAS COUNTY, TEXAS
July 19, 2021
Honorable Danny Bickell, Deputy Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

Roderick Napoleon Harris, Petitioner v. Texas, No. 20-8462

Dear Mr. Bickell:
Petitioner Roderick Harris filed a petition for writ of certiorari in the abovecaptioned case on June 28, 2021, and this Court placed the petition on the docket
on June 30, 2021. The deadline to file a response to the petition is July 30, 2021.
Respondent, the State of Texas, respectfully requests under Rule 30.4 a thirtyday extension of time in which to file its brief in opposition. Respondent is seeking
this extension due to undersigned counsel’s capital docket, non-capital docket,
supervisory duties in the Dallas County District Attorney’s office, and other
work-related obligations. This is the first extension Respondent has requested.
Thank you for your consideration of this matter.
Sincerely,
/s/ Shelly O’Brien Yeatts
Shelly O’Brien Yeatts
Assistant District Attorney, Appellate Division
Dallas County District Attorney’s Office
(214) 653-3630
syeatts@dallascounty.org
cc:

Gwendolyn C. Payton, Kilpatrick Townsend & Stockton, LLP
gpayton@kilpatricktownsend.com
Benjamin Wolff, Office of Capital and Forensic Writs
Benjamin.Wolff@ocfw.texas.gov

Frank Crowley Courts Building, 133 N. Riverfront Blvd., LB-19, Dallas, Texas 75207-4399 | (214) 653-3600

